INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES


                                                                             July 18, 2001

To:    Jack Katz
       Susan Wyderko

From: Walter Stachnik

Re:    Division and Office Websites (G-332)

In a recent investigation (OIG-332), we found that an office website on the Commission’s
Intranet (The Insider) contained links to websites that were unrelated to official
Commission duties and were not appropriate for a Government website. During our
investigation, we learned that no one above the office web site manager had reviewed the
individual links included on the site.

Our investigation revealed a need for improvement in management controls and guidance
over the content of division and office websites. Divisions and offices should be made
aware that they (rather than the Office of Information Technology (OIT)) are responsible
for the content of their sites and should ensure that all site content is related to official
Commission duties. In addition, no written guidance currently exists concerning division
and office website content.

We understand that management has determined that the Web Advisory Panel would be
responsible for issuing appropriate guidance. Each office and division generally provides
a Liaison to the Panel, which works out content and other issues on a website-wide basis.
In the past, the Panel focused most of its efforts on the Commission’s external website. It
does not yet have a formal charter.

Our recommendations to address these issues follow.

Recommendation A

The Web Advisory Panel should require all divisions and offices to review the content on
their Intranet websites to ensure that it is related to official Commission business and
otherwise appropriate. A senior manager (not the person who originally posted the
material) should perform the review. If the content of the site is acceptable, the division
or office should so notify the Panel. Similarly, a division or office senior manager should
review and approve any future changes to the site before they are sent to the Panel.
Recommendation B

The Web Advisory Panel should prepare guidance on division and office website content.
At a minimum, the guidance should provide that divisions and offices (not OIT) are
responsible for website content and that the content must be related to official
Commission duties. The Panel could also consider other possible improvements to
division and office website content and structure (e.g., centralizing Commission links at
one location to improve efficiency and oversight).

Recommendation C

In consultation with the Office of Information Technology, the Office of the Executive
Director, and the Office of the Chairman, the Web Advisory Panel should develop a
charter for its activities.


cc:    Deborah Balducchi
       Mike Bartell
       Mark Brickman
       Nancy Burnett
       Jim Clarkson
       George Eckard
       David Levine
       Jim McConnell
       Helane Morrison
       Darlene Pryor
       Ruth Pitt
       Karen Smith
       Leanne Vaeth
